      Monthly Update Report Data (sheet 1 of 2) Version 1.0
                       Reporting OIG: Transportation

                 Month Ending Date:       03/31/2009
                    Submitter Name: Madeline Chulumovich

              Submitter Contact Info: 202‐366‐6512

                                                       Recovery Act Funds Used on Recovery Act Activity
                                                                                                                    (1)
    Program Source/ Treasury              Program Source/Treasury       Total Funding           Total Obligations              Total Gross Outlays(1)
     Account Symbol: Agency               Account Symbol: Account 
No.           Code                                 Code
                                     69                       0131               $20,000,000                              $0                            $0




                                                     Non-Recovery Act Funds Used on Recovery Act Activity
       Program Source/ Treasury           Program Source/Treasury       Total Funding(2)        Total Obligations(1)           Total Gross Outlays(1)
        Account Symbol: Agency            Account Symbol: Account 
                 Code                              Code
  1                                  69                       0130                 $1,800,000                             $0                   $269,261

      (1)
            From 2/17/09 - 3/31/09
      (2)
        Estimated thru 9/30/09
     Monthly Update Report Data (sheet 2 of 2)
                                                  Reporting OIG:
                                                                   Transportation
                                             Month Ending Date:
                                                                                                                      31-Mar-09
                                    Recovery Act Funds Used on Recovery Act Activity
No.    Short bulleted list of the major actions taken to date             Short bulleted list of the major planned actions
  1 None                                                           None
  2
  3
  4
  5
  6
  7
  8
  9
 10
 11
 12
 13
 14
 15
 16
 17
 18
 19
 20
 21
                                    Non-Recovery Act Funds Used on Recovery Act Activity
No.      Short bulleted list of the major actions taken to date               Short bulleted list of the major planned actions
      On March 10, the IG testified before the House Committee on Continue fraud prevention and awareness briefings and
      Appropriations, Subcommittee on Transportation, Housing       outreach efforts.
      and Urban Development, and Related Agencies, on “Top
      Management Challenges Facing the Department of
      Transportation” which included stewardship of the $48 billion
      in ARRA funding for DOT programs.
  1
      On March 11, Secretary LaHood and Inspector General              Monitor for fraudulent schemes in the contracting process.
      Calvin Scovel III held a DOT-wide Fraud Prevention Briefing
      focusing on how DOT employees can prevent fraud to
      maximize transportation recovery investments.
  2
      On March 27, the IG attended the first meeting of the            Initiate a Department-wide audit, using a risk-based strategy,
      Recovery Act Accountability and Transparency Board and           to evaluate DOT’s management of ARRA programs and its
      agreed to co-chair the Council of Inspectors General on          oversight over grantees and contractors.
      Integrity and Efficiency Economic Recovery Working Group.
  3
      On March 31, 2009, issued our audit report, “American            Develop alternative reporting methods to ensure timely
      Recovery and Reinvestment Act of 2009: Oversight                 reporting of ARRA risks to the Department, Congress and
      Challenges facing the Department of Transportation.”             public.
  4
    On March 31, 2009, requested delegated dual compensation Issue guidance on reporting communications with registered
  5 reduction waiver authority from OPM.                          lobbyists.
    Rolled-out dedicated OIG “recovery” webpage.
  6 (www.oig.dot.gov/recovery)
    Meet bi-weekly with the Department’s Transportation
    Investment Generating Economic Recovery (TIGER) team
    and regularly with its subcommittees regarding DOT’s efforts
    to implement ARRA.
  7
    Provided fraud prevention and awareness briefings
    throughout the United States to DOT highway and transit staff
  8 and their grantees at the state and local levels.
      Coordinated with law enforcement counterparts regarding our
      economic recovery investigative efforts.
  9
    Meet regularly with Government Accountability Office (GAO)
 10 staff to coordinate audit work of DOT ARRA efforts.
    Participated in several ARRA information sharing forums with
 11 other OIGs.
    Issued 60+ job vacancy announcements for auditors,
 12 analysts, and investigators.
    Created special codes within our financial system to ensure
    ARRA-related expenditures are accurately tracked.
 13
 14
                           Office of Inspector General Activities and Accomplishments
      Audits/Inspections/Evaluations/Reviews Initiated            2*    Audits/Inspections/Evaluations/Reviews Issued               2*
                               Investigations Initiated            0                             Investigations Closed               0
        Complaints of Whistleblower Reprisal Initiated             0     Complaints of Whistleblower Reprisal Closed                 0
* Includes 03/10/2009 testimony
